June 1, 2010

TOM A. SAMRA
VICE PRESIDENT, FACILITIES

SUBJECT: Audit Report – Facilities Optimization: Controls Over the Selling of Assets
         (Report Number DA-AR-10-004)

This report presents the results of our audit of the U.S. Postal Service’s process for
selling real estate assets (Project Number 10YG002DA000). Our objective was to
determine if the Postal Service has adequate controls over the selling of real estate
assets. We conducted this self-initiated audit based on the operational and financial
risks associated with real estate sales. See Appendix A for additional information about
this audit.

The Postal Service owns over 9,000 properties nationwide with more than 234 million
square feet of space. Congress recognized in the Postal Accountability and
Enhancement Act of 2006, that the Postal Service has more facilities than it needs and
strongly encouraged streamlining its networks. The Postal Service optimizes its facility
network, using several realty asset management methods, including the sale of excess
property. Given its current financial condition, it is critical that the Postal Service
optimize these sales.

Conclusion

The Postal Service’s 41 facility disposal transactions in fiscal years (FYs) 2008 and
2009 resulted in net sales revenue of $275 million for the Postal Service. Thirty of the
41 (73 percent) facility disposal actions taken during fiscal years (FYs) resulted in the
“best value”1 for the Postal Service. However, in 11 of 41 cases, the Postal Service did
not obtain best value because internal controls over real estate disposals needed
strengthening. In one example, the Postal Service sold and entered into a long-term
leaseback agreement for the property instead of consolidating operations in a nearby
facility. In other examples, the Postal Service sold properties below book or fair market
value.2

The Postal Service could have realized an additional $1.7 million in FYs 2008 and 2009,
if it had specific guidelines requiring leaseback cost comparisons or governing
prospective sales that result in less than the fair market value. In addition, the Postal

1
 Best value is considered to result when the Postal Service maximizes revenue on a sale.
2
 Book value is defined as original cost minus accumulated depreciation. Fair market value is the opinion of property
value based on a property appraisal.
Facilities Optimization:                                                        DA-AR-10-004
 Controls Over the Selling of Assets


Service could have realized another $2.2 million in instances where sales value was not
optimized. See Appendix B for our detailed analysis of this topic and Appendix C for an
impact summary.

Recommendations

We recommend the vice president, Facilities:

1. Develop updated procedures for the sale of real estate assets. These updated
   procedures should include, but not be limited to:

    a. Performing a net present value (NPV)/cost benefit comparison of alternatives
       prior to the sale of real estate assets.

    b. Enhancing procedures that govern “best value” to the Postal Service by
       designating scenarios and exceptions that may apply in the sale of properties.

Management’s Comments

Management agreed with our recommendation and has taken action to enhance facility
optimization tools to include net present value comparisons of optimization alternatives.
In addition, management recently revised the charter for the Realty Asset Executive
Committee to clarify its purpose and strengthen its scope. The intent is to keep the
committee focused on the highest risk deals to assure best value for the Postal Service.

While management agreed with the recommendations and the importance of effective
internal controls, they disagreed with several aspects of the report including the
conclusion that they did not fully achieve best value due to lack of internal controls.
They stated that increased internal controls would not have influenced sales when there
were extenuating circumstances such as political pressure. As such, they disagreed
with the monetary impact presented. We have included management comments, in their
entirety, in Appendix G.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and management’s corrective actions
should resolve the issues identified in the report. In reference to internal controls and
their ability to minimize risks, we note they also serve as the first line of defense in
safeguarding assets and preventing and detecting fraud. In this case, management
should design internal controls to prevent or detect unauthorized disposition of Postal
Service assets.

The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
Facilities Optimization:                                                    DA-AR-10-004
 Controls Over the Selling of Assets


corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel Castillo, director,
Engineering and Facilities, or me at 703-248-2100.

      E-Signed by Mark Duda
 VERIFY authenticity with ApproveIt




Mark Duda
Deputy Assistant Inspector General
 for Support Operations

Attachment(s)

cc: Steven J. Forte
    Sally K. Haring
Facilities Optimization:                                                                            DA-AR-10-004
 Controls Over the Selling of Assets


                             APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service owns over 9,000 properties nationwide. The buildings on these
properties total more than 234 million square feet of space. In the Postal Accountability
and Enhancement Act of 2006, Congress recognized the Postal Service has more
facilities than it needs and strongly encouraged streamlining its networks. According to
a recent Government Accountability Office study,3 although the Postal Service has
begun efforts to realign and consolidate some mail processing, retail, and delivery
operations, much more is urgently needed.

Realty Asset Management (RAM) is responsible for growing revenue by managing the
disposition of real property declared to be excess. In addition, RAM is responsible for
assisting the areas and districts with identifying excess property. Specifically, RAM
provides internal expertise to identify, analyze, and maximize the return on excess and
under-utilized real property assets. Some of the methods RAM uses to manage excess
real property include:

          Disposal – selling property
          Outleasing – leasing owned property
          Subleasing/Assignment – reassigning leased property
          Development – investing in real estate projects

Headquarters management and staff are responsible for setting disposal and
developmental program direction and goals and developmental program policies and
administration, and for obtaining approval from Realty Asset Management Committee
for unconventional contracts and agreements. The RAM field organization is
responsible for administering disposal and outlease programs nationwide.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine if the Postal Service has adequate controls over the
selling of real estate assets. To answer the objective, we evaluated 41 real estate sales
transactions from FYs 2008 and 2009. We interviewed RAM managers to obtain an
understanding of the real estate disposal process and reviewed real estate files for the
subject transactions to assess compliance with applicable Postal Service policies. In
particular, we assessed compliance with:

          Handbook RE-1, Postal Service Facilities Guide to Real Property Acquisitions
           and Related Services, Chapter 7.

          Administrative Support Manual (ASM), Chapter 13, Section 517.4
3
    GAO-09-790T, U.S. Postal Service: Broad Restructuring Needed to Address Deteriorating Finances, July 30, 2009.
4
    Issued July 13, 1999 and updated through January 1, 2009.
  Facilities Optimization:                                                               DA-AR-10-004
   Controls Over the Selling of Assets



         Facility Service Office Process for Disposal of Excess Property, dated May 2007.

  We conducted this performance audit from October 2009 through May 2010 in
  accordance with generally accepted government auditing standards and included such
  tests of internal controls as we considered necessary under the circumstances. Those
  standards require that we plan and perform the audit to obtain sufficient, appropriate
  evidence to provide a reasonable basis for our findings and conclusions based on our
  audit objective. We believe that the evidence obtained provides a reasonable basis for
  our findings and conclusions based on our audit objective.

  We discussed our observations and conclusions with management officials on March
  25, 2010, and included their comments where appropriate. We did not rely upon
  computer-generated data during our engagement.

  PRIOR AUDIT COVERAGE

  The following audit reports are relevant to Postal Service’s facility infrastructure:

                                           Final
                           Report         Report
     Report Title          Number           Date                       Report Results
Sale of the Old         SA-WP-09-001     8/25/2009   There are significant risks to the auction of the Old
Chicago Main Post                                    Chicago Main Post Office. Specifically no minimum
Office                                               bid was established and there was no third-party
                                                     valuation or a review of alternatives and market
                                                     risks.
Sale of the             CA-MA-07-002     2/8/2007    The Postal Service did not conduct the sale in
Philadelphia Main                                    compliance with the requirements in the Postal
Post Office                                          Service Realty Acquisition and Management
                                                     Handbook (RE-1). The property was not valued
                                                     according to Postal Service requirements and was
                                                     not sold on the open market. Management agreed
                                                     with the recommendations.
Facilities Optimization:                                                                                DA-AR-10-004
 Controls Over the Selling of Assets


                                 APPENDIX B: DETAILED ANALYSIS

Disposal Transactions Generally Obtained Best Value for the Postal Service

Overall, property disposal actions were generally conducted to obtain the best value for
the Postal Service. During FYs 2008 and 2009, the Postal Service completed 41 sales
transactions, resulting in revenue of $275 million. Twenty-six5 of the 41 recognized
gains totaled $216 million. Of those transactions, the majority were conducted within the
stated procedures for asset disposal, allowing them to provide the best financial value
for the Postal Service. Notably:

        The 2009 sale of the Tacoma, WA property resulted in a $3,124,250 gain —
         1,562 percent over book value.

        The 2009 sale of the El Dorado, AR property resulted in a $1,115,500 gain —
         3,281 percent over book value.

See Appendix D for U.S. Postal Service Office of Inspector General comments related
to each sale.

Disposal Exceptions

While the Postal Service disposal actions mostly resulted in net gains, we noted 11
instances that did not result in optimum value for the Postal Service. These sales
included leasing back property, selling property below book or market value, losing an
opportunity to maximize revenue, and accepting a deferred payment plan.

Leaseback

In 2005, the city of Phoenix approached the General Services Administration (GSA) to
purchase a building that housed the Postal Service’s Downtown Finance Station. The
Postal Service rented retail and carrier annex space within the building. In order to
expedite the sale, the GSA transferred ownership of the building to the Postal Service to
sell to the city. The property was appraised at $1.8 million. Carrier operations were
relocated to the Rio Salado facility in 2008. In 2009, the sale was completed for
$2 million, resulting in a financial gain of $100,254; however, the Postal Service entered
into a long-term leaseback with the buyer.6

Research of existing Postal Service facilities in the immediate area showed there are at
least eight retail facilities within a 5-mile radius that could absorb the Downtown

5
  Five of the transactions in 2008 and 2009 did not recognize gain or loss on sale.
6
 Lease term is for 5 years fixed, with renewal options for an additional 60 years. This lease may not be terminated
during the fixed term, except for cause pursuant to the general conditions or any riders or addendums or other
attachments made part of this lease. After the fixed term, the Postal Service may terminate this lease pursuant to this
paragraph upon 90 days written notice to the lessor.
Facilities Optimization:                                                                                DA-AR-10-004
 Controls Over the Selling of Assets


Station’s retail function. The Postal Service missed the opportunity to consolidate
operations rather than leaseback property because RE-1 does not specifically require
leaseback cost comparisons for disposal alternatives on a NPV basis.

As presented in Table 1, we determined the cost of consolidating the retail facility would
have netted the Postal Service $220,034 and avoided the need for a leaseback. The 5-
year lease will cost the Postal Service $48,584 each year.

                        Table 1. Net Present Value of Fixed Lease Term

       Lease Year                       0                  1                2                3                4
Year                                  2010               2011             2012             2013             2014
Labor (160 hours)7                     $(5,667)                 $-                $-              $-               $-
Material cost8+ other
                                         (1,333)                  -                 -               -                  -
One-time expenses
Lease cost                                48,584           48,584            48,584         48,584           48,584

Total                                   $41,584          $48,584           $48,584         $48,584          $48,584
Discounted total                        $41,584          $46,941           $45,353         $43,820          $42,338

NPV                                    $220,034
Hourly rate                              $35.42
Discount rate                              .035

Sales Below Market or Book Value

In FYs 2008 and 2009, the Postal Service sold eight properties either below market
value9 or below book value. For example, in FY 2008, the Postal Service sold the
downtown Memphis, TN Post Office to the city of Memphis for $5.4 million – about 78
percent of the appraised value.xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx

The remaining seven facilities were sold below book value without any written
justification or explanation for the sale. FSO officials indicated the goal to generate
immediate revenue drove the sales. In addition, there is no formal guidance or policy
that requires financial analysis or written justification for sales made below book value




7
  Labor was estimated for two Postal Service maintenance workers taking 2 weeks to move and set up existing post
office boxes and perform possible minor wall build-out.
8
   Material costs and other one-time expenses were estimated at $1,332.80.
9
  The terms “appraised market value,” “appraised value,” and “market value” are used interchangeably to refer to the
value of property estimated by a real estate appraiser.
Facilities Optimization:                                                                                  DA-AR-10-004
 Controls Over the Selling of Assets


and tolerance.10 In these cases, the Postal Service sold the properties for $841,000 less
than the book value of $2.3 million. See Appendix E and Appendix F for sale details.

Potential Opportunity Loss on Sale

In 2008, the Postal Service offered the Albuquerque Processing & Distribution Center
(P&DC) for sale. The excess property was appraised at $1.2 million, which served as
the minimum acceptable bid. The best and final offers received were $1.6, $2.0, and
$3.7 million. RAM chose to accept the $3.7 million bid from the city of Albuquerque, NM;
however, the city subsequently withdrew the offer. RAM decided to prepare a new
Solicitation for Offers (SFO) for $3.5 million but Facilities Headquarters advised them to
cancel the SFO and sell it to the city for $2.1 million.

The city’s initial offer indicated that the appraisal of the property did not adequately
reflect the fair market value. Since the final sale exceeded the appraised value by 71
percent, RAM considered it in the best interest of the Postal Service.

The RE-1 states that efforts must be made to generate adequate market exposure of
the property and competition among the interested parties. The broker must also solicit
proposals from private properties using public media. However, solicitation and
competition is not required for sale to local, state, or government entities. Consequently,
there are no definitive guidelines for the offer solicitation and acceptance process when
government entities are involved. Because the property was not reoffered at the
established market value of $3.5 million, the Postal Service experienced an opportunity
loss of $1.4 million.

Sale with Deferred Payment Based on Contingency

In 2008, the Postal Service sold the Farley Building in New York City to the state of New
York for $230 million, $55 million of which was deferred, contingent upon building out
the common space of the property. The state was to pay $55 million on a pro-rata basis
according to the percentage of the area leased. To date, the $55 million future payment
is still outstanding and the new owners (the state of New York) have not selected a
developer for the project. 11 In its analysis of the sale, public accounting firm Ernst
&Young identified the deferred amount as "at risk."

There are no formal guidelines governing the structure of a sale with deferred
payments. Lack of formal guidelines for structuring sales can lead to the Postal Service
entering sales contracts that do not obtain optimum value.




10
   RE-1, Implementation Manual, Chapter 7, requires the report of sales below book value only in cases where the
market appraisal is greater than $1 million below book value.
11
   The Postal Service has received an additional $20 million due to inflation and other factors, totaling $195 million.
Facilities Optimization:                                                                             DA-AR-10-004
 Controls Over the Selling of Assets


                                  APPENDIX C: IMPACT SUMMARY

                                             Monetary Impacts

                  Finding                         Impact Category                          Amount
           Leaseback Issues Unrecoverable Questioned Costs12                               $220,034

           Sales Below FMV           Unrecoverable Revenue Loss13                          1,500,000

                                     TOTAL                                               $1,720,034

                                          Non-Monetary Impacts

                  Finding                   Impact Category                             Amount
           Opportunity Loss           Revenue at Risk14                                 $1,400,000
           on Sale

           Sale Below Book            Revenue at Risk15                                      841,000
           Value
                                      TOTAL                                            $2,241,00016

                                     TOTAL IMPACT                                        $3,961,034




12
   Unrecoverable costs that are unnecessary, unreasonable or an alleged violation of law or regulation.
13
   Revenue that should have been recognized for goods delivered or services rendered, but were not due to the
passage of time or other circumstances.
14
   Revenue that the Postal Service is at risk of losing (for example, when a mailer seeks alternative solutions for
services currently provided by the Postal Service).
15
   These types of prospective sales can be categorized as “Revenue that the Postal Service is at risk of losing.”
16
   The $55 million “at risk” from the Sale with Deferred Payment was not included in non-monetary impact because a
prior Ernst & Young review of the sale identified this value.
Facilities Optimization:                                                                DA-AR-10-004
 Controls Over the Selling of Assets


          APPENDIX D: FY 2008 REAL PROPERTY SALES TRANSACTIONS

                                                       Net Sales
   Count     Area                      City                               OIG Sales Comment
                                                       Revenue
                                                                           Sold at gain, but with
      1      Headquarters New York, NY               $195,000,000           deferred payment
                                                                          based on contingency*
                                 San Francisco,                                No gain/loss
      2      Pacific                                     7,500,000
                                 CA                                             recognized
                                                                          Sold at gain, but below
      3      Southeast           Memphis, TN             5,400,000
                                                                                   FMV*
                                 Oklahoma City,
      4      Southwest                                   3,675,000             Sold at gain
                                 OK
                                                                          Sold at gain, but with
                                 Albuquerque,
      5      Southwest                                   2,100,000         opportunity loss of
                                 NM
                                                                              $1.4 million*
      6      Southeast           Hollywood, FL           1,818,900            Sold at gain
      7      Southwest           Fort Worth, TX          1,735,647            Sold at gain
                                 Citrus Heights,
      8      Pacific                                       970,000             Sold at gain
                                 CA
      9      Northeast           Branford, CT              850,000             Sold at gain
                                 Saratoga
     10      Northeast                                     608,000             Sold at gain
                                 Springs, NY
                                 South Lake
     11      Western                                       375,000             Sold at gain
                                 Tahoe, CA
                                                                           Sold at loss with no
     12      Southwest           San Antonio, TX           327,000
                                                                              justification*
     13      Eastern             Lexington, KY            200,000             Sold at gain
     14      Western             Cameron, MO               90,000             Sold at gain
                                                     $220,649,547

*Instances that did not result in optimum value for the Postal Service.
Facilities Optimization:                                                              DA-AR-10-004
 Controls Over the Selling of Assets


               APPENDIX E: FY 2009 REAL PROPERTY SALES TRANSACTIONS

                                                 Net Sales
Count      Area                    City                                   OIG Sales Comment
                                                 Revenue
   1       Western        St. Paul, MN          $14,843,750           No gain/loss recognized
   2       Northeast      Boston, MA              9,750,000           No gain/loss recognized
   3       Eastern        Washington, DC           9,460,205          No gain/loss recognized
   4       Western        Tacoma, WA               3,339,250                Sold at gain
   5       Eastern        Pittsburgh, PA           2,835,000                Sold at gain
                                                                 Sold at gain, but with subsequent
   6       Western        Phoenix, AZ              2,000,000
                                                                            leaseback*
  7        Northeast      Portland, ME             1,915,000                Sold at loss
  8        Pacific        Saratoga, CA             1,520,000                Sold at gain
  9        Eastern        Virginia Beach, VA       1,388,375                Sold at gain
  10       Southwest      El Dorado, AR            1,149,500                Sold at gain
  11       Eastern        Cincinnati, OH           1,014,500                Sold at gain
  12       Pacific        San Francisco, CA          985,000          No gain/loss recognized

  13       Northeast      Parsippany, NY             912,000                 Sold at gain
  14       Southeast      LaVergne, TN               572,100                 Sold at gain
  15       Pacific        Danville, CA               504,450                 Sold at gain
  16       Pacific        Bell, CA                   450,000                 Sold at loss
  17       Northeast      Meriden, CT                448,106      Sold at loss with no justification*
  18       Southeast      Clarksville, TN            381,000                 Sold at gain
  19       Pacific        Moreno Valley, CA          380,000      Sold at loss with no justification*

  20       Northeast      Jersey City, NJ            201,360                 Sold at gain
  21       Southeast      Tamiami, FL                180,000                 Sold at gain
  22       Northeast      Marlboro, NY               137,618                 Sold at loss
  23       Southwest      Angleton, TX               102,949      Sold at loss with no justification*
  24       Western        Jerome, ID                 100,000      Sold at loss with no justification*
  25       Western        Fort Dodge, IA              32,775      Sold at loss with no justification*
  26       Southwest El Paso, TX                     27,160       Sold at loss with no justification*
  27       Northeast Calais, ME                       4,700                  Sold at gain
                                                $54,634,798
*Instances that did not result in optimum value for the Postal Service.
Facilities Optimization:                                                      DA-AR-10-004
 Controls Over the Selling of Assets


                         APPENDIX F: SALES BELOW BOOK VALUE

                                       Appraised
Count         Area            City                 Book Value    Sale Price       Loss
                                         Value
                           Meriden,
   1       Northeast                    $690,000      $798,476     $485,000     $313,476
                           CT
                           Moreno
   2       Pacific         Valley,      $230,000      $440,249     $400,000       $40,249
                           CA
                           San
   3       Southwest       Antonio,     $310,000      $579,397     $327,000     $252,397
                           TX

                           Angleton,
   4       Southwest                    $120,000      $120,909     $110,000       $10,909
                           TX


                           Jerome,
   5       Western                      $100,000      $300,000     $100,000     $200,000
                           ID

                           Fort
   6       Western         Dodge,        $33,600       $45,836      $34,400       $11,396
                           IA


                           El Paso,
   7       Southwest                    $ 27,560       $39,824      $27,360       $12,464
                           TX


                                                    $2,324,691   $1,483,760     $840,891
Facilities Optimization:                                    DA-AR-10-004
 Controls Over the Selling of Assets


                        APPENDIX G: MANAGEMENT’S COMMENTS
Facilities Optimization:               DA-AR-10-004
 Controls Over the Selling of Assets
Facilities Optimization:               DA-AR-10-004
 Controls Over the Selling of Assets
